         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Needs to Better Report
       Chesapeake Bay Challenges
       A Summary Report

       Report No. 08-P-0199

       July 14, 2008
Report Contributors:              Rick Beusse
                                  Hilda Canes Garduño
                                  Bao Chuong
                                  Dan Engelberg
                                  Linda Fuller
                                  Julie Hamann
                                  James Hatfield
                                  Bill Nelson




Abbreviations

CBPO         Chesapeake Bay Program Office
EPA          U.S. Environmental Protection Agency
NO2          nitrogen dioxide
NOx          nitrogen oxide
NPDES        National Pollutant Discharge Elimination System
OIG          Office of Inspector General
TMDL         Total Maximum Daily Load
USDA         U.S. Department of Agriculture




Cover photos:   Clockwise, from top: Sailboats near Annapolis, Maryland (courtesy National
                Oceanic and Atmospheric Administration); cows grazing near a stream within
                the Chesapeake Bay watershed (courtesy Chesapeake Bay Program); a view of
                the Baltimore Inner Harbor (EPA photo); and a blue crab caught in Maryland
                (courtesy National Oceanic and Atmospheric Administration).
                       U.S. Environmental Protection Agency                                                   08-P-0199
                                                                                                           July 14, 2008
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review           EPA Needs to Better Report Chesapeake Bay
This review summarizes
                                 Challenges – A Summary Report
several evaluations conducted
by the Office of Inspector        What We Found
General in response to a
congressional request.           Despite many noteworthy accomplishments by the Chesapeake Bay partners, the
We evaluated how well the        Bay remains degraded. This has resulted in continuing threats to aquatic life and
U.S. Environmental Protection    human health, and citizens being deprived of the Bay’s full economic and
Agency (EPA) is working          recreational benefits. Through its reporting responsibilities, EPA could better
with its Chesapeake Bay          advise Congress and the Chesapeake Bay community that (a) the Bay program is
partners in cleaning up the      significantly short of its goals and (b) partners need to make major changes if
Bay.                             goals are to be met. Current efforts will not enable partners to meet their goal of
                                 restoring the Bay by 2010. Further, new challenges are emerging. Bay partners
Background                       need to address:

The Chesapeake Bay is North           •   uncontrolled land development
America’s largest and most            •   limited implementation of agricultural conservation practices
biologically diverse estuary          •   limited control over air emissions affecting Bay water quality
and provides the region
economic and recreational        EPA does not have the resources, tools, or authorities to fully address all of these
benefits. Nutrient and           challenges. Farm policies, local land development decisions, and individual life
sediment overloading is the      styles have huge impacts on the amount of pollution being discharged to the Bay.
primary cause of water quality   EPA needs to further engage local governments and watershed organizations in
degradation. EPA’s               efforts to clean up the Bay.
Chesapeake Bay Program
Office is charged with            What We Recommend
coordinating federal, State,
and local partners to plan and   In four prior reports, we made recommendations to the Region 3 Regional
implement strategies to meet     Administrator to address individual sector needs (agricultural, developing lands,
the restoration goals of the     air deposition, and wastewater). In this summary report, we are making
Bay.                             additional recommendations on overall issues to the EPA Administrator.

                                 We recommend that the EPA Administrator improve reporting to Congress and
For further information,         the public on the actual state of the Chesapeake Bay and actions necessary to
contact our Office of
Congressional and Public         improve its health. We also recommend that the Administrator develop a strategy
Liaison at (202) 566-2391.       to further engage local governments and watershed organizations to capitalize on
                                 their resources, tools, authorities, and information to advance the mission of the
To view the full report,         Chesapeake Bay, and provide the Chesapeake Bay Program Office with the
click o the following link:
www.epa.gov/oig/reports/2008/
                                 opportunity to comment on proposed rulemaking related to pertinent air issues.
20080714-08-P-0199.pdf           EPA concurred with all of the recommendations in this report.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                             July 14, 2008

MEMORANDUM

SUBJECT:       EPA Needs to Better Report Chesapeake Bay Challenges –
               A Summary Report
               Report No. 08-P-0199


FROM:          Wade T. Najjum
               Assistant Inspector General, Office of Program Evaluation

TO:            Stephen L. Johnson
               Administrator


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $253,615.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0827
or najjum.wade@epa.gov; Dan Engelberg, Director, at 202-566-0830 or engelberg.dan@epa.gov;
or Linda Fuller, Project Manager, at 617-918-1485 or fuller.linda@epa.gov.
EPA Needs to Better Report Chesapeake Bay                                                                                   08-P-0199
Challenges – A Summary Report




                                      Table of Contents
What We Looked at and Why .............................................................................................               1

Why Cleaning Up the Bay Matters .....................................................................................                 3

Who Is Cleaning Up the Bay? .............................................................................................             5

Noteworthy Achievements..................................................................................................             6

EPA Can Do More to Assist Bay Partners
and Report to Congress on Progress ...............................................................................                    8

         More Progress Needed .............................................................................................           8
         Significant Challenges Remain .................................................................................              9
         EPA Needs to Better Use Its Reporting Powers to
         Inform Congress and Bay Citizens of Program Challenges ...................................... 13
         Recommendations .................................................................................................... 16
         Agency Response and OIG Comments .................................................................... 16


Status of Recommendations and Potential Monetary Benefits ...................................... 17



Appendices
    A       Scope and Methodology ...................................................................................... 18

    B       Prior Reports ........................................................................................................ 19

    C       Summaries of Prior EPA OIG Reports ................................................................ 20

    D       Status of Recommendations for Prior EPA OIG Reports ................................. 23

    E       Nutrient and Sediment Contributions to Bay Water Quality Degradation ...... 30

    F       Opportunities to Further Reduce Mobile Source Emissions ........................... 32

    G       Agency Response ................................................................................................. 34

    H       Distribution ............................................................................................................ 35
                                                                                        08-P-0199




What We Looked at and Why

               In 2000, Maryland, Pennsylvania, Virginia, and the District of Columbia renewed
               their agreement to reduce nutrient and sediment loads in the Chesapeake Bay.
               This was done to improve water quality and remove the Bay from the U.S.
               Environmental Protection Agency’s (EPA’s) impaired waters list by 2010.
               Improving water quality is the most critical element in the overall protection and
               restoration of the Bay and its tributaries, according to the Chesapeake 2000
               agreement. Nutrient and sediment overloading was identified as the primary
               cause of water quality degradation within the Bay.

               Bay stakeholders questioned whether the needed load reductions will be met. In
               2005, U.S. Senator Barbara A. Mikulski of Maryland requested the EPA Office of
               Inspector General (OIG) to evaluate the Chesapeake Bay Program’s progress in
               meeting its nutrient and sediment reduction goals. We evaluated the Chesapeake
               Bay Program’s efforts in reducing excess nutrients (nitrogen and phosphorous)
               and sediments from four key sources:

                   •   Agriculture
                   •   Air deposition
                   •   Developing land
                   •   Wastewater treatment facilities

                                                                The diagram in Figure 1 shows
                                                                how excess nutrients from all
                                                                four sources end up in the Bay.

                                                                We issued separate reports for
                                                                each topic. Details on our scope
                                                                and methodology are in
                                                                Appendix A. In addition to the
                                                                four areas noted above, in the
                                                                past few years we issued reports
                                                                on how EPA grants supported
                                                                restoring the Chesapeake Bay,
                                                                and how well federal facilities in
                                                                the Bay watershed were
                                                                complying with water permits.
                                                                A listing of prior reports on the
                                                                Chesapeake Bay is in
                                                                Appendix B. Appendix C
Figure 1: Conceptual Diagram of Nutrient and Sediment Sources   provide summaries on each of
and Pathways in the Chesapeake Bay Watershed                    the prior EPA OIG reports,
Source: U.S. Geological Survey



                                                  1
                                                                          08-P-0199


while Appendix D summarizes the status of recommendations from those prior
reports as reported by the Agency.

In 2006, after we had started our reviews, EPA acknowledged that the nutrient
goals will not be met by 2010, but did not set a new date. Restoring the Bay’s
water quality is still far from being accomplished. We integrated the results of all
our prior Chesapeake Bay reports to provide this overall assessment of challenges
to restoring the Bay. Success is critical not only to the Chesapeake Bay but to
other watersheds that use the Chesapeake Bay Program as a model.




Sailing and fishing are popular recreational activities in the
Chesapeake Bay (photo courtesy Chesapeake Bay Program).




                                        2
                                                                                                    08-P-0199




Why Cleaning Up the Bay Matters

                   The Chesapeake Bay is North America’s largest and most biologically diverse
                   estuary and provides the region economic and recreational benefits. The
                   Chesapeake Bay watershed covers 64,000 square miles and includes parts of six
                   States – Delaware, Maryland, New York, Pennsylvania, Virginia, and West
                   Virginia – and all of the District of Columbia. A watershed refers to a geographic
                   area in which water drains to a common outlet. As of 2005, about 16 million
                   people lived within the Chesapeake Bay watershed.

                   However, most of the Bay's
                   waters are degraded. Algal
                   blooms fed by nutrient
                   pollution block sunlight from
                   reaching underwater bay
                   grasses and can lead to low
                   oxygen levels in the water
                   and fish kills. Sediment from
                   urban development,
                   agricultural lands, and natural
                   sources is carried into the
                   Bay and clouds its waters.

                   Nutrient and sediment runoff
                   have harmed bay grasses and
                   bottom habitat, while
                   disproportionate algae growth
                   has pushed the Bay food web
                   out of balance. Bay habitats
                   and lower food web are at
                   about one-third desired          Figure 2: Chesapeake Bay Watershed Map
                   levels. Many of the Bay's        Source: Chesapeake Bay Program Office
                   fish and shellfish populations
                   are below historic levels. The blue crab population has been below management
                   targets for the past 10 years. Fish and shellfish are at about two-fifths of desired
                   levels.1 Details on nutrient and sediment contributions to Bay water quality
                   degradation are in Appendix E.

                   The Bay provides significant economic and recreational benefits to the
                   watershed’s population. According to a 1989 economic study by Maryland, the
                   Chesapeake Bay provides economic and recreational opportunities estimated to


1
    Chesapeake Bay 2006 Health Assessment - http://www.chesapeakebay.net/assess/2006_health.htm).


                                                        3
                                                                         08-P-0199


exceed $33 billion annually. Poor water quality results in waters that do not
support fishing, crabbing, or recreational activities.

Finding solutions to cleaning up the Chesapeake Bay will be useful to
stakeholders in other bays and estuaries nationwide because they face similar
challenges. According to 2006 National Water Quality Assessment data, States
reported excessive nutrients and sediment as leading causes of impaired water.
States identified wastewater treatment facilities, urban/stormwater runoff,
atmospheric deposition, and agricultural practices as the sources of the reported
impairments. The Chesapeake Bay partners have pioneered some approaches and
can offer valuable lessons learned to other impaired estuaries.




Stormwater carries trash and other pollutants into receiving waters
(photo courtesy Chesapeake Bay Program).




                                        4
                                                                                                    08-P-0199




Who Is Cleaning Up the Bay?

                 In an effort to protect and restore the Chesapeake Bay’s ecosystem, federal and
                 State agencies, academic institutions, and non-government organizations formed a
                 regional partnership in 1983. The State governments, District of Columbia, and
                                                  EPA signed various agreements in 1983, 1987, and
                                                  2000. The latest agreement, Chesapeake 2000,
                                                  was signed by Maryland, Pennsylvania, and
                                                  Virginia (the “signatory States”); the District of
                                                  Columbia; the Chesapeake Bay Commission (a tri-
                                                  state legislative advisory body); and EPA.

                                                 The Clean Water Act provides EPA’s Chesapeake
                                                 Bay Program Office (CBPO) with the
                                                 responsibility for coordinating clean-up efforts
                                                 with its partners in cleaning up the Bay – other
Part of the oyster fleet in Annapolis, Maryland  federal agencies and State and local governments.
(photo courtesy National Oceanic and             EPA is also tasked with assessing and reporting to
Atmospheric Administration).
                                                 Congress on the effectiveness of management
                                                 strategies every 5 years. CBPO, headquartered in
                   Annapolis, Maryland, is part of EPA’s Region 3. Part of the CBPO’s charge is
                   coordinating the actions of EPA with its partners in developing strategies to:

                     •   improve the water quality and living resources in the Chesapeake Bay
                         ecosystem, and
                     •   obtain the support of the appropriate officials of the agencies and
                         authorities in achieving the objectives of the Chesapeake Bay Agreement.

                 The Chesapeake Executive Council meets at least annually and provides the
                 program with leadership and is accountable to the public for progress made under
                 agreements. Membership includes the governors of Maryland, Pennsylvania, and
                 Virginia; the EPA Administrator; the Mayor of the District of Columbia; and the
                 Chair of the Chesapeake Bay Commission.

                 In Chesapeake 2000, the Bay partners agreed to improve water quality in the Bay
                 and its tributaries so that these waters would be removed from EPA’s impaired
                 waters list by 2010 and avoid the development of a Total Maximum Daily Load
                 (TMDL).2 The non-signatory Bay watershed States of Delaware, New York, and
                 West Virginia also agreed to these water quality goals by signing a six-State
                 Memorandum of Understanding with EPA.


2
 A TMDL is a calculation of the maximum amount of a pollutant a waterbody can receive and still meet water
quality standards, and an allocation (wasteload allocation) of that amount to the pollutant’s sources.


                                                       5
                                                                                     08-P-0199




Noteworthy Achievements

       EPA and its Bay partners have completed many noteworthy activities in their
       efforts to clean up the Bay. Bay partners have reduced nutrients and sediment
       even as the Bay’s population grows. The following is a summary of just some of
       the most recent accomplishments as partners or individually.

       • Maryland created the Bay Restoration
           Fund of 2004 that established fees to
           support enhanced nutrient removal
           upgrades at wastewater treatment
           facilities, septic system upgrades, and
           planting of cover crops.

       • Maryland enacted the Clean Cars Act
           of 2007 requiring the Department of the
           Environment and the Motor Vehicle           Cover crops absorb excess nutrients in
           Administration to adopt regulations to      the soil and help prevent soil erosion,
           establish a low emissions vehicle           protecting water quality and aquatic
                                                       health (photo courtesy Chesapeake Bay
           program; vehicle emissions can harm         Program).
           the Bay through air deposition.

       •   In 2004, Pennsylvania developed the Agriculture, Communities and Rural
           Environment initiative that required an additional 5,000 farmers to prepare
           nutrient management plans for nitrogen and phosphorus, with mandatory
           buffers from streams, increasing the number of highly regulated farms by
           about 600 percent.

       •   In July 2007, Pennsylvania enacted the Resource Enhancement and Protection
           Act, which provides tax credits to farmers and businesses to implement
           conservation practices that reduce pollution.

       • Virginia enacted its Water Quality Improvement Act of 1997 establishing the
           Water Quality Improvement Fund to provide 50 percent of the capital costs to
           install nutrient removal facilities.

       • Pennsylvania and Virginia created nutrient trading programs for their
           wastewater treatment facilities and, in Pennsylvania, agricultural producers.
           EPA has assisted the States in developing these programs.

       •   EPA assisted the States in revising their water quality standards by issuing its
           April 2003 Ambient Water Quality Criteria for Dissolved Oxygen, Water
           Clarity, and Chlorophyll a for the Chesapeake Bay and Its Tidal Tributaries,


                                         6
                                                                          08-P-0199


    and its October 2003 Technical Support Document for Identification of
    Chesapeake Bay Designated Uses and Attainability.

•   In 2003, the Chesapeake Executive Council endorsed the water quality criteria
    and allocations of nutrient and sediment reductions, which served as the basis
    for expanded tributary strategies in each jurisdiction.

•   The Bay States and the District of Columbia have developed tributary
    strategies that outline how they will develop and implement a series of “best
    management practices” to minimize pollution.

•   In December 2004, EPA Regions 2 and 3 and the Chesapeake Bay
    jurisdictional partners developed and agreed to the NPDES Permitting
    Approach for Discharges of Nutrients in the Chesapeake Bay Watershed for
    municipal and industrial wastewater NPDES (National Pollutant Discharge
    Elimination System) discharge sources. With this approach, EPA and State
    NPDES permitting authorities agreed to place annual total nitrogen and
    phosphorus load limits (consistent with the individual State tributary
    strategies) and monitoring requirements (consistent with Chesapeake Bay
    nutrient goals) in the permits of all significant dischargers in the Chesapeake
    Bay watershed. This is particularly noteworthy considering some dischargers
    are hundreds of miles upstream and may not directly benefit from Bay
    improvements.

•   In September 2006, the EPA OIG found that EPA awarded grants that
    contributed toward meeting Clean Water Act and Chesapeake 2000 agreement
    goals.




    With the help of an EPA grant, a bank installed a “green roof”
    on one of its buildings in Richmond, Virginia. Among its many
    benefits, the green roof reduces polluted stormwater runoff.
    (EPA OIG photo).




                                       7
                                                                                                          08-P-0199




EPA Can Do More to Assist Bay Partners
and Report to Congress on Progress

                    Despite many noteworthy accomplishments by the Chesapeake Bay partners, the
                    Bay remains degraded. This has resulted in continuing threats to aquatic life and
                    human health, and citizens being deprived of the Bay’s full economic and
                    recreational benefits. Through its reporting responsibilities, EPA could better
                    advise Congress and the Chesapeake Bay community that (a) the Bay program is
                    significantly short of its goals and (b) partners now need to make major changes if
                    water quality goals are to be achieved and maintained. Current efforts will not
                    enable the partners to meet their goal of restoring the Bay by 2010, and new
                    challenges are emerging. Bay partners need to address:

                        •    uncontrolled land development
                        •    limited implementation of agricultural conservation practices
                        •    limited control over air emissions affecting Bay water quality

                    EPA does not have the resources, tools, or authorities to fully address all of these
                    remaining challenges. National farm policy, local land development decisions,
                    and individual life styles have huge impacts on the amount of pollution being
                    discharged to the Bay. EPA needs to further engage local governments and
                    watershed organizations in efforts to clean up the Bay.

More Progress Needed
                    Even though the area’s population has been growing, the Bay Partners have made
                    progress in reducing nutrients and sediments discharged to the Bay. However, at
                    the current rate of reductions, it will take decades to meet the 2010 goals. Based
                    on the 2007 health and restoration assessment in A Report to the Citizens of The
                    Bay Region issued by the Chesapeake Bay Program partnership, the Bay partners
                    have achieved 47, 62, and 64 percent of the nitrogen, phosphorus, and sediment
                    loading goals,3 respectively. These decreases are primarily the result of
                    reductions from upgraded wastewater treatment facilities, successful phosphate
                    detergent bans, and use of agricultural best management practices. Based on
                    monitoring data, the U.S. Geological Survey determined that nitrogen and
                    phosphorus concentrations have decreased but not at a rate that would sufficiently
                    reduce nutrient loads to meet the Bay’s water quality standards by 2010. In 2007,
                    the Bay partners reported that they were only 21 percent of the way toward
                    meeting the water quality goals, a drop from 23 percent in 2006.



3
    Baywide progress may not always reflect individual jurisdiction progress because of differences in programs.


                                                           8
                                                                                              08-P-0199


                                                      EPA used its expertise and regulatory authority to
                                                      coordinate a major effort by the Bay partners to
                                                      revise water quality standards and upgrade
                                                      wastewater treatment facilities. The Bay partners
                                                      have set a foundation for achieving the nutrient
                                                      reductions needed from the wastewater sector if
                                                      implemented as planned. In our January 2008 report,
                                                      Despite Progress, EPA Needs to Improve Oversight
                                                      of Wastewater Upgrades in the Chesapeake Bay
                                                      Watershed, we noted that EPA needs to better
The Blue Plains Wastewater Treatment Plant
serves the Washington, DC, metropolitan area and      monitor progress in upgrading wastewater treatment
is the largest wastewater treatment facility in the   plans to ensure that it is done timely and that
Chesapeake Bay watershed (EPA OIG photo).             reductions are achieved and maintained.

 Significant Challenges Remain
                  The Bay partners need to address current and emerging challenges involving
                  (a) uncontrolled land development, (b) limited implementation of agricultural
                  conservation practices, and (c) limited control over air emissions. In some cases,
                  there are no clear regulatory programs to control the major sources of pollution.
                  Other practices are controversial because they place restrictions on the lives of the
                  residents of the Bay watershed (such as being able to build additions to existing
                  houses or develop vacant land). It will be difficult to address these challenges.
                  Even where cost effective practices exist, implementation may only be voluntary
                  and thus limited.

                  Also, consistent and sustained funding sources have not been identified to meet
                  all the Bay’s needs. The Bay clean-up is expensive, and the key funding source is
                  the public through increased taxes and fees. In October 2004, CBPO estimated
                  the remaining capital costs for implementing tributary strategies to be $28 billion.
                  The public may resist incurring these costs. For example, some municipalities are
                  suing the Pennsylvania Department of Environmental Protection over stricter
                  wastewater treatment facility discharge limits. To reach these limits, most
                  facilities will need to install nutrient removal technology funded by increased user
                  fees. Therefore, through reports and other forms of outreach, Bay partners need
                  to help the Bay citizens appreciate the importance of their investment for
                  achieving water quality standards in local waters as well as the Bay.

                  EPA Can Better Assist Local Communities in Managing Growth

                  New development is increasing nutrient and sediment loads at rates faster than
                  restoration efforts are reducing them. Further, while developed lands contribute
                  less than one-third of the Bay loads, they are expected to require about two-thirds
                  of the overall estimated restoration costs. We discuss these issues in our report
                  Development Growth Outpacing Progress in Watershed Efforts to Restore the
                  Chesapeake Bay, issued September 10, 2007.


                                                         9
                                                                               08-P-0199


The key decision-makers in how the Chesapeake Bay watershed develops will be
the local governments and citizens, not EPA. However, “smart growth”
techniques can be a cost-effective way for communities to manage new
development, and EPA should
encourage such growth.
Communities could incorporate
smart growth practices into local
codes and regulations.

While smart growth practices can
lessen development impact, they
do not eliminate it. EPA needs to
engage the States and local
governments to agree to a strategy
on how communities in the Bay
watershed will develop and             Suburban growth encroaching on farmlands is a key
improve water quality. Such a          issue in the Chesapeake Bay watershed that requires
                                       “smart growth” techniques (photo courtesy
strategy should identify actions       Chesapeake Bay Program).
needed, responsible action
officials, and funding. In our
September 2007 report, we recommended that EPA develop such a strategy and
include local governments in planning. EPA concurred with the
recommendations. EPA can also impact local decision making by establishing a
strong stormwater permit program, and sharing knowledge on smart growth best
management practices. In its annual reporting, EPA should identify the economic
and social challenges that the partners and local governments are facing in
managing development so that citizens and political leaders will be able to make
informed decisions about meeting the challenges.

Agricultural Producers Need to Significantly Increase
Conservation Practices Protecting Water Quality

The Federal Government needs to establish a coherent national policy that helps
agricultural producers be protective of water quality while remaining profitable.
The agricultural sector is the single largest contributor of the pollutants harming
the Bay. Based on 2007 data, 65 per cent of nitrogen, 60 percent of phosphorus,
and 86 percent of sediment reductions needed to meet reduction goals are
expected to come from agriculture. The U.S. Department of Agriculture (USDA),
a Bay partner, provides leadership on agricultural and conservation practices. In
our report on agricultural practices, Saving the Chesapeake Bay Watershed
Requires Better Coordination of Environmental and Agricultural Resources,
issued jointly on November 20, 2006, with the USDA OIG, we reported that few
of the agricultural practices were reported to have been implemented, based on
2004 data. According to the 2007 estimates calculated by the Chesapeake Bay
Program’s watershed model, less pollution is coming from the agricultural sector
but the reduction is not enough to meet the water quality goal.



                                   10
                                                                                            08-P-0199


               Agricultural pollution can be controlled through regulation or incentives.
               However, EPA’s regulatory authority and financial aid for agriculture is limited.
               EPA is only allowed to regulate concentrated animal feeding operations that
                                                 discharge into the Nation’s waters, but EPA was
                                                 unable to provide us with information on how
                                                 many farms or how much pollution is under
                                                 EPA regulatory control in the Chesapeake Bay
                                                 watershed. Nationwide, EPA estimates that
                                                 only about 5 percent of animal feeding
                                                 operations are regulated; the balance operate
                                                 under voluntary programs.

                                                      EPA provides a small amount of incentive
                                                      funding to agricultural producers, usually just
                                                      for one-time demonstration projects. USDA
                                                      provides substantially more financial funding
Wastewater and rainwater from an area where dairy
cows are housed flow to the drain (center of photo),  plus technical assistance. For example, from
which is directed to a storage tank (EPA OIG photo).  2003 to 2005, EPA awarded approximately
                                                      $11 million from its nonpoint source program
                   for agricultural projects statewide in Maryland, Pennsylvania, and Virginia. For
                   the same period and scope, USDA provided over $250 million for conservation
                   practices. Regardless, current budgets cannot fill the demand for assistance
                   programs, making it difficult to expand incentives for agricultural producers.

               Even though USDA has been encouraging science-based conservation practices in
               the region for years, it has not significantly adapted its strategies to meet the
               specific needs of the Chesapeake Bay. Many agricultural conservation practices
               must be implemented on a consistent basis to improve water quality, and
               substantial, long-term financial commitments will be needed.

               Some in the agricultural community believe they have been unfairly stigmatized
               as the “villain” in contributing to the Bay’s pollution. USDA staff questioned the
               accuracy of the Chesapeake Bay Program’s Phase 4.3 watershed model estimates
               of how much pollution is coming from the agricultural sector. Obtaining
               sufficient data on the actual extent and success of agricultural conservation
               estimates has been limited. The Bay partners need to work with USDA and the
               agricultural community to develop a better reporting and measurement system.

               Bay partners have recently identified the emerging biofuel industry as another
               challenge to reducing nutrients from the agricultural sector. To lessen
               dependence on imported oil and reduce green-house gases, the Nation is exploring
               homegrown renewable fuels. With its proximity to oil refineries and rising corn
               prices, agricultural producers in the Chesapeake Bay region may decide to expand
               their acreage devoted to corn – the primary source for grain-based ethanol. The
               Chesapeake Bay Commission estimated that Bay area agricultural producers




                                                  11
                                                                                                       08-P-0199


                    growing corn to support the emerging ethanol industry could introduce as much as
                    an additional 5 million pounds of nitrogen per year to the Bay.

                    Further Reductions in Air Emissions Can Help Restore the Bay

                    Although EPA has several actions underway to reduce nitrogen oxide (NOx)
                    emissions under the Clean Air Act, atmospheric deposition continues to be a
                    significant contributor to the Bay’s overall nitrogen loads. Air deposition
                    accounts for about a quarter to a third of the nitrogen loads to the Bay. CBPO is
                    relying on anticipated nitrogen deposition reductions from Clean Air Act
                    regulations already issued by EPA, combined with anticipated reductions from
                    other non-air sources, to meet water quality goals for the Bay watershed. Details
                    are in our prior report, EPA Relying on Clean Air Act Regulations to Reduce
                    Atmospheric Deposition to the Chesapeake Bay and its Watershed, issued
                    February 28, 2007.

                                                                The NOx emissions that contribute nitrogen
                                                                deposition to the Bay and its watershed come
                                                                from States both inside and outside the
                                                                watershed. This geographical area is referred
                                                                to as the airshed.4 Because non-air sectors
                                                                have not reduced their nitrogen loads as
                                                                planned, additional reductions in air emissions
                                                                and its resulting atmospheric deposition may
    Cargo ships contribute to air deposition (photo             be needed. Two Clean Air Act-related actions
    courtesy Chesapeake Bay Program).
                                                                could have an impact. EPA recently lowered
       Emerging Challenge of Increasing                         its 8-hour ozone standard, which could require
        NOx Emissions from Shipping                             nonattainment areas to make additional
                                                                reductions in NOx emissions. Also, EPA is
    Shipping traffic on the East Coast has continued            reviewing its secondary standard for nitrogen
    to become increasingly heavy since 2004, and                dioxide (NO2); if EPA tightens this standard,
    will become more so after expansion of the
                                                                States may need to further reduce NOx
    Panama Canal is completed (scheduled for
    2014). The Virginia Port Authority forecasts that           emissions. Absent these two actions, any
    the Port of Hampton Roads (which includes                   additional NOx reductions would likely have
    Norfolk International Terminal, Newport News                to be State-initiated.
    Marine Terminal, Portsmouth Marine Terminal,
    and the Craney Island Terminal) will grow                   We identified several opportunities for
    approximately 400 percent from 2005 to 2040.                reducing mobile source emissions, the
    The increase in traffic is projected to result in an
    estimated 14,100 tons of additional NOx air
                                                                predominant source of atmospheric deposition
    emissions annually by 2040. This amounts to                 to the Bay, which would not require additional
    about 14 percent of the nitrogen that EPA had               Clean Air Act regulations or revisions. Some
    projected to be emitted from all sources within             of these actions are voluntary initiatives while
    the entire airshed in 2010.                                 others would require State regulatory action.
                                                                These initiatives can be controversial

4
  EPA defines the Bay airshed as the area where nitrogen emission sources are estimated to cumulatively contribute
75 percent of the total nitrogen deposition to the Bay and its surrounding watershed.


                                                           12
                                                                                                       08-P-0199


                 (e.g., adopting Low Emitting Vehicle standards) or difficult to implement (e.g.,
                 voluntary programs). Consequently, States may be reluctant to take such
                 initiatives, particularly those outside the Bay watershed. These actions are
                 discussed further in Appendix F.

                 Under the Clean Air Act, EPA has set
                 primary and secondary air quality
                 standards for six pollutants, including
                 ozone and NO2. Because NOx is a critical
                 ingredient to the formation of ozone,5 EPA
                 and Bay partner States have undertaken
                 numerous efforts to reduce NOx emissions,
                 including emissions standards for motor
                 vehicles (e.g., the Tier 2 program and
                 Clean Air Nonroad Diesel Rule),                      Automobile exhaust can contribute
                 emissions standards for electric utilities,          significant amounts of nitrogen to the
                                                                      Chesapeake Bay through air deposition
                 and the NOx Transport Rule. CBPO is                  (photo courtesy Chesapeake Bay Program).
                 relying on these anticipated nitrogen
                 deposition reductions to meet Bay goals.

                 Further reductions in NOx emissions may be required depending upon the result
                 of the EPA Office of Air and Radiation’s review of the current secondary
                 National Ambient Air Quality Standards for NO2.6 The secondary standards are
                 to protect the public welfare from any known or anticipated adverse effects from
                 pollutants in ambient air, including to the Bay. Accordingly, this review plans to
                 consider the impact of these emissions on the Chesapeake Bay. As part of its
                 review of the NO2 secondary standard, EPA may consider the impact of other
                 reactive forms of nitrogen, such as ammonia. Our prior report on air deposition in
                 the Bay reported that ammonia emissions from animal feeding operations
                 represent a potentially significant uncontrolled contributor of nitrogen loads to the
                 Bay. The impact of ammonia emissions on algal blooms is more significant than
                 NOx because ammonia/ammonium is the preferred form of nitrogen. A more
                 stringent secondary standard for NO2 could result in additional controls to reduce
                 NOx emissions that would help reduce nitrogen deposition in the Bay. CBPO
                 should have the opportunity to review and comment on any proposed rulemaking
                 resulting from EPA’s review because of the potential impact that revision of the
                 secondary standard for NO2 could have on the Bay.

EPA Needs to Better Use Its Reporting Powers to Inform Congress
and Bay Citizens of Program Challenges
                 Congress and Bay citizens need to be provided with a realistic picture of what it
                 will take to clean the Bay and when the water quality goals will be achieved.
5
 Nitrogen oxides react with volatile organic compounds in the presence of sunlight to form ground-level ozone.
6
 NO2 represents the specific air quality indicator that the standard measures. However, EPA considers the impact
of oxides of nitrogen in setting the standard.


                                                       13
                                                                          08-P-0199


Such information is needed so that informed decisions on funding and policy can
be made. However, neither EPA’s report to Congress nor the Bay partners’
annual report provide complete information on Bay activities and challenges. The
reporting process provides for disclosing progress, impediments, and
recommendations for achieving desired outcomes. CBPO should work with its
partners to determine appropriate mechanisms for reporting. This should include
funding gaps, the status of wastewater treatment facility construction, local
regulatory issues, and other impediments to cleaning up the Bay. By improving
the information it shares with Congress and the public and further leveraging
partner resources, EPA can go a long way in bringing about the changes needed to
achieve the goals desired by the Chesapeake Bay watershed stakeholders.

The Clean Water Act requires the EPA Administrator to report to Congress every
5 years on the state of the Bay and to make recommendations for improvement.
EPA’s CBPO did not effectively use its first Chesapeake Bay 5-year report,
issued in 2003, to make recommendations for improved management strategies.
CBPO missed the opportunity to inform Congress of higher-level challenges,
delaying the success of the program. Although CBPO was drafting a 2008 report
during our review, it did not make that report available to us to review.

Congress’ requirement for the 5-year report also directs that the information be
presented in such a format as to be readily transferable to and useable by other
watersheds. Congress provides CBPO with the highest level of funding among all
the great waters programs. CBPO needs to ensure that other estuary programs can
benefit from the Chesapeake Bay. For example, CBPO and its Bay partners have
created an NPDES strategy, providing a scientific and regulatory structure for the
wastewater treatment sector, which other watersheds may wish to follow.
Nutrient overloading from wastewater treatment facilities is a common problem
experienced by other watersheds across the Nation.

The Chesapeake Bay partners also issue an annual Bay Health and Restoration
report. While this report provides progress in meeting the water quality goals, it
does not provide a complete picture of progress made. It does not indicate what
steps are needed for each sector to achieve its targets. As a result, readers do not
know the likelihood of these sectors achieving the remainder of their goals or how
this affects achieving overall water quality goals. For example, the Bay partners
reported in 2006 that, since 1985, the agriculture sector is at the half-way mark for
meeting its nutrient reduction goals and two-fifths toward meeting its sediment
goal, and notes significant funding and technical assistance will be needed.
However, the report did not identify how the funding or assistance would be
obtained, or what the impact would be if the funding and assistance were not
obtained. Bay experts have stated that the “easy fixes” have been done, leaving
more difficult challenges to be addressed.

The Chesapeake Bay Program has been under much scrutiny by the EPA OIG and
other organizations to determine if reported progress was accurately portrayed. In



                                 14
                                                                            08-P-0199


2005, the Government Accountability Office recommended that CBPO
(1) complete its efforts to develop and implement an integrated assessment
approach; (2) revise its reporting approach to improve the effectiveness and
credibility of its reports; and (3) develop a comprehensive, coordinated
implementation strategy that takes into account available resources. The Senate
and House Appropriations Committee withheld $5 million in administrative funds
until EPA implements these recommendations. CBPO was further directed by
Congress to develop a Chesapeake Bay action plan for the remaining years of the
Chesapeake 2000 agreement. The Bay partners have drafted the Chesapeake
Action Plan, which is described as integrating all of the Bay program’s
partnership activities into a realistic plan that targets resources to ensure that the
most effective and realistic work plans are developed and implemented. The draft
plan includes actions for other federal and State agencies and some watershed
organizations. This plan, which CBPO had planned to submit to Congress by
June 20, 2008, was not available for our review during our evaluation.

EPA’s regulatory authority is limited by statute, but it can address some of its
limitations by capitalizing on the resources, tools, and authorities of its partners.
EPA has developed a relationship with the “signatory” States. However, EPA
needs to do more to assure that local governments and watershed organizations
are also active partners. EPA should work with local governments and watershed
organizations to identify effective and realistic practices for these partners to
implement. Successful key actions could be embodied in the Chesapeake Action
Plan.




The sun setting over St. Mary’s River in Maryland (photo
courtesy National Oceanic and Atmospheric Administration).




                                     15
                                                                                 08-P-0199


Recommendations

         In prior reports, the EPA OIG made recommendations to the Region 3 Regional
         Administrator to address individual sector needs (agricultural, developing lands,
         air deposition, and wastewater). Appendix D provides specifics. We are
         addressing this summary report to the EPA Administrator because EPA’s
         implementation of all the previously issued recommendations alone cannot ensure
         that the Bay partners will achieve their water quality goals. Other federal
         agencies and State and local governments have responsibilities to clean up the
         Bay, and without their active involvement restoration cannot succeed. Also, the
         success of the Chesapeake Bay restoration is critical for estuaries across the
         country experiencing similar issues.

         Specifically, we recommend that the EPA Administrator:

            1.    Improve reporting to Congress and the public on the actual state of the
                  Chesapeake Bay and actions necessary to improve its health by
                  including the following information in an appropriate report:

                    •   Activities and resources necessary to accomplish the Chesapeake
                        2000 agreement goals;
                    •   Activities that are not supported with funding or a commitment
                        from the responsible federal, State, or local government;
                    •   Challenges significantly hindering the Bay partners in adequately
                        reducing nutrients and sediment;
                    •   Milestones for generating funding and accomplishing activities;
                        and
                    •   Impact on the health of the Bay if milestones are not accomplished.

            2.    Develop a strategy to further engage local governments and watershed
                  organizations to capitalize on their resources, tools, authorities, and
                  information to advance the mission of the Chesapeake Bay and include
                  key actions as developed into the Chesapeake Action Plan.

            3.    Provide CBPO with the opportunity to review and comment on any
                  proposed rulemakings resulting from the Office of Air and Radiation’s
                  review of the secondary standard for NO2.

Agency Response and OIG Comments

         The Agency concurred with the recommendations in this report. A complete copy
         of the Agency’s response is in Appendix G. These recommendations will remain
         open until the Agency has completed the agreed-upon actions.




                                         16
                                                                                                                                   08-P-0199



                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                      BENEFITS (in $000s)

                                                                                                             Planned
    Rec.    Page                                                                                            Completion   Claimed    Agreed To
    No.      No.                           Subject                           Status1     Action Official       Date      Amount      Amount

     1       16     Improve reporting to Congress and the public on            O        EPA Administrator
                    the actual state of the Chesapeake Bay and
                    actions necessary to improve its health by including
                    the following information in an appropriate report:
                      • Activities and resources necessary to
                        accomplish the Chesapeake 2000 agreement
                        goals;
                      • Activities that are not supported with funding
                        or a commitment from the responsible
                        federal, State, or local government;
                      • Challenges significantly hindering the Bay
                        partners in adequately reducing nutrients and
                        sediment;
                      • Milestones for generating funding and
                        accomplishing activities; and
                      • Impact on the health of the Bay if milestones
                        are not accomplished.

     2       16     Develop a strategy to further engage local                 O        EPA Administrator
                    governments and watershed organizations to
                    capitalize on their resources, tools, authorities, and
                    information to advance the mission of the
                    Chesapeake Bay and include key actions as
                    developed into the Chesapeake Action Plan.

     3       16     Provide CBPO with the opportunity to review and            O        EPA Administrator
                    comment on any proposed rulemakings resulting
                    from the Office of Air and Radiation’s review of the
                    secondary standard for NO2.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   17
                                                                                        08-P-0199


                                                                                   Appendix A

                           Scope and Methodology

We performed this review in accordance with generally accepted government auditing standards
issued by the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

We conducted our field work from May 2005 through February 2008 for all our assignments.
We conducted our work at EPA Region 3’s headquarters office in Philadelphia, Pennsylvania,
and its CBPO office in Annapolis, Maryland. We also did work at EPA’s National Exposure
Research Laboratory in Research Triangle Park, North Carolina. Further, we did work with
USDA, signatory State offices, selected municipalities, and selected agricultural operations. We
interviewed staff at these locations. We also interviewed experts from academia and other fields
involved in the Chesapeake Bay restoration. We limited our evaluation to efforts by the
signatory jurisdictions of the District of Columbia, Maryland, Pennsylvania, and Virginia.

We reviewed the activities the Bay partners had taken since signing the Chesapeake 2000
agreement through 2007. We reviewed the Chesapeake 2000 agreement, State tributary
strategies, available implementation plans, data from the Chesapeake Bay Program watershed
model v.4.3 and point source data base, and other related documents. We reviewed the progress
the Chesapeake Bay Program partners had been making in achieving water quality standards by
reducing nutrients and sediments from 1985 to 2007 using the following:

   •   estimated loading data from 1985 to 2007 from the Bay’s watershed model v. 4.3,
   •   reported data from the CBPO Point Source Data Base,
   •   2006 and 2007 Chesapeake Bay Health and Restoration Assessment issued by Bay
       partners,
   •   Synthesis of U.S. Geological Survey Science for the Chesapeake Bay Ecosystem and
       Implications for Environmental Management.

We determined that the CBPO had established data quality standards for its v.4.3 watershed
model; we did not assess the accuracy of the data input into the model. The only point sources
reviewed were the wastewater treatment facilities and municipal separate storm sewer systems;
we did not conduct a review of concentrated animal feeding operation point sources.

We obtained an understanding of the controls EPA has in place to report on the progress the Bay
partners are making in reducing nutrients and sediments by sector. The Bay partners are relying
on federal, State, and local government regulations and voluntary actions.

Details on prior audit coverage are in Appendices B through D.




                                               18
                                                                                      08-P-0199


                                                                                  Appendix B

                                      Prior Reports

                Four Prior EPA OIG Reports Issued in Response to Request
Title                                                       Report No.     Date
Saving the Chesapeake Bay Watershed Requires Better         2007-P-00004   November 20, 2006
Coordination of Environmental and Agricultural Resources
(issued jointly with USDA OIG)
EPA Relying on Existing Clean Air Act Regulations to        2007-P-00009   February 28, 2007
Reduce Atmospheric Deposition to the Chesapeake Bay
and its Watershed
Development Growth Outpacing Progress in Watershed          2007-P-00031   September 10, 2007
Efforts to Restore the Chesapeake Bay
Despite Progress, EPA Needs to Improve Oversight of         08-P-0049      January 8, 2008
Wastewater Upgrades in the Chesapeake Bay Watershed




                      Additional EPA OIG Reports on Chesapeake Bay
Title                                                       Report No.     Date
EPA Grants Supported Restoring the Chesapeake Bay           2006-P-00032   September 6, 2006
Federal Facilities in Chesapeake Bay Watershed              2007-P-00032   September 5, 2007
Generally Comply with Major Clean Water Act Permits




                 Other Notable Chesapeake Bay Reports (Not by EPA OIG)
Title                                                       Report No.        Date
Government Accountability Office Report, Chesapeake Bay     GAO-06-96         October 2005
Program: Improved Strategies Are Needed to Better Assess,
Report, and Manage Restoration Progress
National Academy of Public Administration Report:           Academy           April 2007
Taking Environmental Protection to the Next Level:          Project No:
An Assessment of the U.S. Environmental Delivery System     2048




                                                 19
                                                                                         08-P-0199


                                                                                    Appendix C

               Summaries of Prior EPA OIG Reports

Summaries of Four Prior Reports Issued in Response to Request

Below are summaries on the four reports we have already published in response to the
congressional request by Senator Mikulski. Appendix D lists all of the recommendations and the
status on each.

 Saving the Chesapeake Bay Watershed Requires Better                             2007-P-00004
 Coordination of Environmental and Agricultural Resources                    November 20, 2006

       State-level partners have committed the agricultural community to making nutrient
       reductions, but numerous practices abound and are generally performed on a voluntary
       basis. Few of the agricultural practices in the tributary strategies have been implemented
       because the agricultural community considers many of these practices as either being
       unprofitable or requiring significant changes in farming techniques. Although the State-
       level partners have provided substantial funding to implement these practices, one of the
       key State partners acknowledged substantial additional funding is still needed. At the
       federal level, applications for USDA’s technical and financial assistance programs went
       unfunded, making it difficult to expand incentives for Bay area agricultural producers.

       EPA must improve its coordination and collaboration with its Bay partners and the
       agricultural community to better reduce nutrients and sediment entering the Chesapeake
       Bay watershed. However, members of the agricultural community have been reluctant to
       participate with EPA because of EPA’s regulatory enforcement role. USDA, a Bay
       partner at the federal level, could significantly assist EPA in implementing the needed
       conservation practices within the agricultural community, given its many conservation
       programs, extensive field organization, and long experience working with the agricultural
       community. However, USDA has not coordinated a Department-wide strategy or policy
       to address its commitment as a Bay partner.

 EPA Relying on Clean Air Act Regulations to                                       2007-P-00009
 Reduce Atmospheric Deposition to the Chesapeake Bay                           February 28, 2007
 and Its Watershed

       CBPO is relying on anticipated nitrogen deposition reductions from Clean Air Act
       regulations already issued by EPA, combined with anticipated reductions from other
       non-air sources, to meet water quality goals for the Bay watershed. EPA believes these
       activities will provide sufficient nitrogen deposition reduction to enable the Bay to meet
       its overall nitrogen cap load, assuming non-air activities achieve planned reductions.
       EPA estimates that Clean Air Act regulations already issued will reduce nitrogen that
       falls directly into the Bay, as well as nitrogen deposited to the Bay watershed, by



                                               20
                                                                                       08-P-0199


     19.6 million pounds annually by 2010. Even greater reductions should occur as States
     undertake additional measures in the next few years to meet the ozone and fine
     particulate matter standards. State and EPA strategies do not include additional air
     reduction activities specifically designed to clean up the Bay, although many State
     activities should have the co-benefit of reducing nitrogen deposition in the Bay.

     If additional reductions in air emissions are needed to clean up the Bay, one potentially
     significant source of deposition not currently controlled is ammonia emissions from
     animal feeding operations. The magnitude of these emissions to nitrogen deposition in
     the Bay is uncertain. Ammonia emissions monitoring of animal feeding operations,
     expected to begin in the spring or early summer of 2008, should provide data to help EPA
     better determine the amount of such emissions from farming operations.

Development Growth Outpacing Progress in Watershed                              2007-P-00031
Efforts to Restore the Chesapeake Bay                                      September 10, 2007

     EPA and its Chesapeake Bay watershed partners will not meet load reduction goals for
     developed lands by 2010 as established in the Chesapeake 2000 agreement. In fact, new
     development is increasing nutrient and sediment loads at rates faster than restoration
     efforts are reducing them. Developed lands contribute less than one-third of the Bay
     loads but would require about two-thirds of the overall estimated restoration costs.
     Consequently, EPA and its Bay partners focused on more cost-effective approaches, such
     as upgrading wastewater facilities and implementing agricultural best practices.
     Additional challenges impeding progress include:

        •   Lack of community-level loading caps.
        •   Shortage of up-to-date information on development patterns.
        •   Ineffective use of regulatory programs to achieve reductions.
        •   Limited information and guidance on planning and applying environmentally
            sensitive development practices.
        •   Limited funding available for costly practices.

     A cost-effective start to reversing the trend of increasing loads from developed land is for
     communities to concentrate on new development. Opportunities abound for EPA to
     show greater leadership in identifying practices that result in no-net increases in nutrient
     and sediment loads from new development and assisting communities in implementing
     these practices. If communities do not sufficiently address runoff from new
     development, loads from developed lands will continue to increase rather than diminish.

Despite Progress, EPA Needs to Improve Oversight of                                 08-P-0049
Wastewater Upgrades in the Chesapeake Bay Watershed                            January 8, 2008

     Chesapeake Bay wastewater treatment facilities risk not meeting the 2010 deadline for
     nutrient reductions if key facilities are not upgraded in time. In the 7 years since signing
     the Chesapeake 2000 agreement, EPA and its State partners have taken a number of steps



                                              21
                                                                                      08-P-0199


     to lay the foundation for achieving the 2010 wastewater nutrient reduction goals. Water
     quality standards have been set, nutrient loadings have been allocated, and nutrient limits
     are beginning to be incorporated into permits. However, States need to finish adding
     nutrient limits to the permits, and the facilities will need to make significant reductions
     by 2010. Crucially, these reductions will need to be maintained once achieved.
     Significant challenges include generating sufficient funding and addressing continuing
     population growth. EPA needs to better monitor progress to ensure needed upgrades
     occur on time and loading reductions are achieved and maintained. Otherwise, Bay
     waters will continue to be impaired.


Summaries of Two Additional Reports Involving Chesapeake Bay

EPA Grants Supported Restoring the Chesapeake Bay                               2006-P-00032
                                                                            September 6, 2006

     EPA awarded assistance agreements (grants) that contributed toward meeting the goals of
     the Clean Water Act and the Chesapeake 2000 agreement. These grants funded activities
     designed primarily to: reduce the nutrients and sediment entering the Bay and its
     tributaries, monitor ongoing efforts to restore Bay water quality, and model (estimate) the
     results of Bay implementation strategies. In Fiscal Years 2003, 2004, and 2005, Congress
     appropriated $23 million each year for EPA’s Chesapeake Bay Program. In each of those
     years, EPA awarded about $8 million for State implementation grants and $7 million for
     technical and other grants for specific projects. EPA used the remaining $8 million to fund
     EPA personnel and office management, interagency agreements, and congressional
     earmarks. The efforts contributed to EPA’s overall Bay restoration program. This report
     did not contain recommendations.

Federal Facilities in Chesapeake Bay Watershed                                  2007-P-00032
Generally Comply with Major Clean Water Act Permits                         September 5, 2007

     Overall, EPA and the States are doing well managing how major federal facilities comply
     with their NPDES permits. In EPA’s last reporting period (2004), major federal facilities
     in the Chesapeake Bay watershed had a lower rate of Significant Noncompliance than
     other federal and non-federal major-permit facilities nationwide. EPA and States have a
     variety of formal and informal tools available to enforce federal facility compliance with
     NPDES permits. These tools included: multimedia, voluntary agreement, and media
     press release approaches; Notices of Violation; an administrative order; and a Federal
     Facility Compliance Agreement. Also, EPA developed the Wastewater Integrated
     Strategy, which seeks to eliminate federal facility Significant Noncompliance with
     NPDES permit limits. EPA also worked with the Department of Defense to make
     NPDES permit compliance a higher priority at military installations (eight of the nine
     federal facilities with major NPDES permits are at military installations). We made no
     recommendations in this report.
What We




                                             22
                                                                                        08-P-0199


                                                                                    Appendix D

                    Status of Recommendations for
                        Prior EPA OIG Reports

 Saving the Chesapeake Bay Watershed Requires Better                             2007-P-00004
 Coordination of Environmental and Agricultural Resources                    November 20, 2006

The OIG has accepted EPA’s corrective action plan for all recommendations.

Recommendation 1: We recommend that the EPA Administrator propose executing a
Memorandum of Agreement with the USDA to assist the Bay partners in meeting their nutrient
reduction goals by:
   a. Identifying conservation practices USDA will promote with either technical assistance or
      cost-share programs.
   b. Developing procedures for promoting and fast-tracking alternative practices for cost-share
      programs and technical assistance.
   c. Establishing a task force to identify how USDA cost-share programs can better assist the
      States in carrying out their tributary strategies.
   d. Establishing demonstration projects to emphasize producer benefits, not just
      environmental benefits of best management practices in tributary strategies.
   e. Conducting research to quantify accurately the nutrient load reductions from alternative
      best management practice strategies to ensure these practices are the best for removing
      nutrients and to improve the models.
   f. Developing a tracking system to determine a more accurate picture of the agricultural
      community’s commitment to implementing the tributary strategies.

           Status: Completed. On May 9, 2007, EPA and USDA agreed to a Memorandum of
           Understanding to carry out activities to help Chesapeake Bay Program partners meet
           their nutrient reduction goals.

Recommendation 2: We recommend that the EPA Region 3 Regional Administrator instruct
EPA/CBPO to work with USDA, the States, local governments, land grant universities, and
agricultural organizations to revisit State tributary strategies to ensure that the mix of best
management practices chosen are those most suitable to the area, have the greatest potential for
implementation, and can effectively reduce nutrient and sediment loss.

           Status: Task ongoing. As of March 9, 2007, EPA plans to actively participate in
           USDA priority-setting activities and program guidance forums to advance the Bay
           Program nutrient reduction priorities. The Nutrient Subcommittee and its
           Agricultural Nutrient Reduction Workgroup is critically evaluating cost-effective
           practices and developing a plan for how to accelerate implementation of these
           practices. EPA is working to finalize the Chesapeake Bay Watershed Model (Phase



                                               23
                                                                                          08-P-0199


           5.0). EPA has funded the Cooperative State Research, Education, and Extension
           Service Mid-Atlantic Regional Water Program to improve the description of pollutant
           removal efficiencies of agricultural best management practices. Several Bay States
           are using nutrient trading as a tool to help meet Chesapeake Bay water quality goals.

Recommendation 3: We recommend that the EPA Region 3 Regional Administrator instruct
EPA/CBPO to include development of implementation plans as a special condition in Chesapeake
Bay Program grant agreements for States that have not submitted an implementation plan.

           Status: Completed. In the 2007 Grant Guidance, EPA requires that any signatory
           jurisdiction or headwater State that does not have an approved Tributary Strategy
           implementation plan work directly with its Project Officer to assure that any missing
           elements of Tributary Strategy implementation plans are incorporated into its Work
           Plan.

NOTE: The four following recommendations were made to USDA for which the USDA OIG is
conducting the audit follow-up.

USDA OIG has accepted USDA’s corrective action plan for all recommendations.

Recommendation 4: We recommended that the USDA Secretary or Deputy Secretary assign a
senior level Departmental official to coordinate USDA goals and programs with EPA and the
Chesapeake Bay Program. Delegate to that official authority to direct and coordinate goals and
programs across USDA mission areas and agencies and to monitor USDA actions to meet the
Chesapeake Bay Program goals.

           Status: Completed. On February 18, 2007, USDA Secretary Mike Johanns
           designated the Under Secretary, Natural Resources and Environment (NRE), as the
           USDA official responsible for coordinating USDA program activities and initiatives
           with the Environmental Protection Agency, its Chesapeake Bay Program Office, and
           others that have an interest in restoring the Chesapeake Bay. This designated official
           will also provide the leadership necessary to monitor USDA actions and results in
           meeting mutual goals and objectives of the Bay, as well as provide periodic briefings
           regarding USDA’s coordinated efforts.

Recommendation 5: We recommended that the USDA Secretary or Deputy Secretary review
the feasibility of targeting or redirecting USDA funds (or allocating USDA funds) on a regional
and/or geographical basis to coordinate with the environmental restoration of the Chesapeake
Bay, including the possibility of linking the availability of financial and technical assistance to
proximity to the Chesapeake Bay watershed.

           Status: Completed. On March 11, 2008, NRCS, as the lead agency for NRE,
           achieved final action when it provided evidence that USDA had reviewed the
           feasibility of targeting or redirecting USDA funds (or allocating USDA funds) on a
           regional and/or geographical basis to coordinate with the environmental restoration of
           the Chesapeake Bay, including the possibility of linking the availability of financial



                                                 24
                                                                                       08-P-0199


           and technical assistance to proximity to the Chesapeake Bay. An independent third
           party contactor, selected competitively to examine the efficacy of its program
           allocation formula, concluded that NRCS needs to (1) develop better outcome based
           performance information and integrate the information into its allocation formulas;
           (2) improve the analytical soundness of the allocation models, factors, weights and
           data particularly through the elimination of redundant factors; and (3) improve the
           transparency of the budget allocation formula. The contractor’s report also
           recommended that NRCS minimize the use of factors which are not related to
           performance. The prime example of this is the use of base factors which attempt to
           define the landmass being addressed by the program. (i.e., NRCS should avoid
           targeting or redirecting funds on a regional and/or geographical basis.)

Recommendation 6: We recommended that the USDA Secretary or Deputy Secretary direct
USDA agencies to expedite the development and implementation of outcome-based performance
measurements for evaluating the effectiveness of their conservation efforts and programs.

           Status: Task ongoing. In its October 12, 2006 response, NRCS, as lead agency for
           NRE, stated it has directed USDA agencies to expedite the development and
           implementation of outcome-based performance measurements through the
           Conservation Effects Assessment Project (CEAP), a significant multi-agency effort
           designed to quantify the benefits of conservation practices implemented by private
           landowners participating in selected USDA conservation programs. The agencies
           expect that CEAP will provide much needed data, methods, and information to
           improve measurement of program performance, and will also assist in development of
           improved measures that better reflect desired environmental outcomes. NRCS’
           leadership is scheduled to meet again by June 2008 to assess the direction needed to
           accomplish the recommendation.

Recommendation 7: We recommended that the USDA NRCS Chief develop a tracking system
for maintaining a list of technical assistance and financial assistance requests from landowners
and agricultural producers that cannot be completed due to limited funding.

           Status: Task ongoing. In its October 12, 2006 response, NRCS agreed to develop a
           tracking system for technical assistance requests. In January 2008, NRCS advised it
           no longer intends to develop a tracking system for technical assistance requests.
           Instead, NRCS will seek a change in management decision (a new corrective action
           plan) and request final action. NRCS stated it is developing of a new agency-wide
           tracking system for all its program activity. The creation of an interim process to
           track unfunded technical and financial assistance requests is no longer a prudent use
           of limited resources. NRCS leadership is scheduled to meet again by June 2008 to
           assess the direction needed to accomplish the recommendation.




                                               25
                                                                                         08-P-0199



 EPA Relying on Clean Air Act Regulations to                                       2007-P-00009
 Reduce Atmospheric Deposition to the Chesapeake Bay                           February 28, 2007
 and Its Watershed

The OIG has accepted EPA’s corrective action plan for the recommendation.

Recommendation 1: We recommend that the EPA Region 3 Regional Administrator instruct
CBPO to use the results of the animal feeding operations emissions monitoring studies to
determine what actions and strategies are warranted to address animal feeding operations’
nitrogen deposition to the Chesapeake Bay.

          Status: Task ongoing. CBPO and its partners continue to use the results of the
          Community Multiscale Air Quality Model to factor in the estimated water quality
          benefits of Clean Air Act regulations within the development of the Chesapeake Bay
          watershed TMDL currently underway. The Mid-Atlantic Water Quality Program has
          completed development of best management practices and efficiencies for application
          to animal feeding operations that will yield reductions in ammonia emissions. These
          BMPs and efficiencies are currently undergoing review through the Chesapeake Bay
          Program's Nutrient Subcommittee and technical workgroup prior to submission to the
          Program's Water Quality Steering Committee for final approval for application by the
          watershed partners.


 Development Growth Outpacing Progress in Watershed                               2007-P-00031
 Efforts to Restore the Chesapeake Bay                                       September 10, 2007

The OIG has accepted EPA’s corrective action plan for all recommendations.

Recommendation 2-1: We recommend that the EPA Region 3 Regional Administrator charge
the CBPO Director to prepare and implement a strategy that demonstrates leadership in reversing
the trend of increasing nutrient and sediment loads from developed and developing lands. Such a
strategy should include steps to:
   •   develop a set of Environmentally Sensitive Development practices that result in no-net
       increase in nutrient and sediment loads and flows in new developments and may be
       applicable to existing development and redevelopment;
   •   work with State and local partners, developers, federal agencies, and other stakeholders
       to implement these practices through regulatory, voluntary, and incentive approaches;
   •   educate municipal officials on these practices and other aspects of Environmentally
       Sensitive Development;
   •   target technical assistance to local governments interested in pursuing tools and strategies
       for reducing runoff from development;
   •   identify progressive local governments and leaders in the housing and commercial
       development fields and create forums for sharing information;
   •   report on progress through the existing annual reporting structure; and
   •   evaluate the effectiveness of the strategy.


                                                26
                                                                                       08-P-0199




           Status: Task ongoing. CBPO has agreed to formulate a strategy for developed and
           developing lands by September 10, 2008. Also, CBPO, will issue an annual report on
           progress toward reducing nutrient and sediment loads from developed and developing
           lands, starting in September 2009.

Recommendation 2-2: We recommend that the EPA Region 3 Regional Administrator charge
the CBPO Director to work with the Chesapeake Bay partners to set realistic, community-level
goals for reducing nutrient and sediment loads from developed and developing lands.

           Status: Task ongoing. By March 2009, EPA and State partners will begin to reach
           agreement on needed changes to Bay-wide caps and allocate those caps by tributary.
           By July 2010, EPA will confirm that the individual jurisdictional allocation and
           implementation strategies that States will develop will result in achievement of
           Chesapeake Bay water quality standards. These allocations will be reflected in the
           draft watershed TMDL expected to be published in 2011.

Recommendation 2-3: We recommend that the EPA Region 3 Regional Administrator charge
the Water Protection Division Director to establish, with the delegated States, a documented
permitting approach that achieves greater nutrient and sediment reductions in municipal separate
storm sewer system permits across the watershed by:
   •   incorporating measurable outcomes in line with waste load allocations, when established
       for local waters and the Chesapeake Bay, through the TMDL regulatory program;
   •   including retrofitting of developed areas where these actions would benefit local waters
       as well as the Bay; and
   •   disallowing increases in loads and flows.

           Status: Task ongoing. EPA has agreed to develop a technical support document to
           establish common expectations with respect to the municipal separate storm sewer
           system program for permit writers and the regulated community by April 2008.
           EPA will establish a permitting approach with States by October 2008.


 Despite Progress, EPA Needs to Improve Oversight of                                08-P-0049
 Wastewater Upgrades in the Chesapeake Bay Watershed                           January 8, 2008

The OIG has accepted EPA’s corrective action plan for recommendations 2-1 thru 2-5. The
OIG’s acceptance of Recommendation 3-1 is pending EPA’s submission of dates when proposed
actions will be completed.

Recommendation 2-1: We recommend that the EPA Region 3 Regional Administrator instruct
staff to review and comment on State-drafted NPDES permits for significant facilities to ensure
that interim construction milestones are included in compliance schedules longer than 1 year to
meet the Chesapeake Bay allocations. The milestones should include:




                                               27
                                                                                         08-P-0199


   •   design construction
   •   construction start
   •   construction completion
   •   compliance with permit limits

           Status: Task ongoing. EPA will continue to review and comment on State-drafted
           NPDES permits for significant facilities. EPA will assure that milestones are in place
           if the compliance schedule to achieve the permit limit exceeds 1 year. EPA will seek
           to include the following milestones, as appropriate in the permits: design completion,
           construction start, construction completion, and compliance with permit limits.

Recommendation 2-2: We recommend that the EPA Region 3 Regional Administrator instruct
staff to obtain from NPDES-authorized States information on progress in achieving the
milestones above the “select priority facilities.” Such priority facilities include those that are
identified as needing the largest nutrient reductions and are identified by the States as missing
the interim milestones noted in Recommendation 2-1. If milestones are missed, EPA will work
with the States to take appropriate follow-up action to ensure compliance with the milestones.

           Status: Task ongoing. By October 1, 2008, EPA will:
           • Initiate milestone tracking for 10 designated priority facilities. These priority
              facilities are estimated to achieve about 75 percent of the total nitrogen reductions
              and about 50 percent of the phosphorus reductions planned for significant
              facilities.
           • Identify interim milestones for each design completion, construction start,
              construction completion, and compliance with permit limits.
           After October 1, 2008, EPA will commit to:
           • Identify those facilities that have not met their interim or final milestones.
           • Within 60 days of identifying such a facility, will initiate a corrective action
              dialogue with the State.

Recommendation 2-3: We recommend that the EPA Region 3 Regional Administrator instruct
staff to collect information and report on the amount and source of funding for the
aforementioned “select priority facilities” as part of the CBPO’s annual reporting process.

           Status: Task ongoing. Starting on January 1, 2009, and every year thereafter until
           the priority facilities have completed their upgrades, EPA will track the amount and
           source of funding allocated for undertaking the required treatment upgrades for each
           of the priority facilities identified by EPA. This information will be included in the
           Chesapeake Action Plan’s operation data base, which will be updated at least
           annually and distributed to the Bay partners.

Recommendation 2-4: We recommend that the EPA Region 3 Regional Administrator instruct
staff to promote awareness of and use of the “Financing Alternatives Comparison Tool” and
other financial analysis tools within the Chesapeake Bay community.




                                                28
                                                                                            08-P-0199


           Status: Task ongoing. To promote greater awareness and use of the “Financing
           Alternatives Comparison Tool,” EPA will: continue to develop and implement
           webcasts on the tool for States and grantees; streamline the tool to make it easier to
           use for local governments; and expand the existing user guide and release it by
           October 1, 2008.

Recommendation 2-5: We recommend that the EPA Region 3 Regional Administrator instruct
staff to continue to assist States in their development of effective trading programs by ensuring
that: (a) States establish a common nutrient trading currency, and (b) lessons learned are
captured and disseminated. In addition, if an interstate trading protocol program is developed,
EPA should develop a formal mechanism to track water quality trading across State lines.

           Status: Task ongoing. EPA is providing assistance to States in developing effective
           trading programs by: (a) establishing the “delivered load” as a common currency
           using the Chesapeake Bay watershed model, and (b) sharing lessons learned through
           a standing EPA-State nutrient trading workgroups. EPA will also document the
           lessons learned on the Chesapeake Bay trading programs to share with other
           watersheds. EPA will develop a process for tracking interstate trades if they occur
           that will transparently track trades across State lines and assure that such trades use
           the same trading “currency.”

Recommendation 3-1: We recommend that the EPA Region 3 Regional Administrator work
with NPDES-delegated States to complete current efforts, related to industrial discharges, to:
(a) characterize current nutrient discharge levels; (b) refine nutrient cap loads, where appropriate;
and (c) issue permits reflecting modified cap load.

           Status: Task ongoing. (a) EPA has already worked with key States to obtain the
           necessary data to properly characterize the nutrient loadings from industrial
           dischargers. These point sources are being required through their permits to conduct
           the appropriate monitoring. By May 2011, EPA will work with the States to: (b)
           develop facility specific nutrient loading targets for those facilities and (c) place these
           loading targets, where appropriate, into the NPDES permits for these facilities as
           permit limits.




                                                 29
                                                                                                                                             08-P-0199


                                                                                                                                           Appendix E

                 Nutrient and Sediment Contributions to
                     Bay Water Quality Degradation
Nutrient overload has been identified as the primary cause of water quality degradation within
the Chesapeake Bay. Nitrogen and phosphorus, also known as nutrients, are the basic building
blocks for vegetation. However, in an aquatic environment, excess nutrients fuel large algal
blooms that block sunlight and deplete oxygen as the algae decompose. Without sunlight,
underwater bay grasses cannot grow, and without sufficient oxygen blue crabs and fish cannot
live. Nutrients come from many sources, such as lawn fertilizer, wastewater treatment plants,
septic systems, cropland, livestock, and the air. The pie charts in Figure E-1 below illustrate the
contributions of nitrogen, phosphorus, and sediment from various sectors.

           Figure E-1: Contributions of Nitrogen, Phosphorus, and Sediment
                       Sources of Nitrogen to Bay (2007)                                           Sources of Phosphorus (2007)

                                            Non-Tidal
                                                                                                                    Non-Tidal
                                              Water
                                                                                                                      Water
                              Forest        Deposition                                                       Forest
                                                                                                  Mixed Open        Deposition
                               16%             1%                                                             2%
                                                                                                     13%               1%
                      Septic                             Agriculture
                       5%                                   40%                                                              Agriculture
                                                                                                   Urban                        46%
                 Mixed Open                                                                         17%
                     7%

                       Urban
                        11%                                                                            Wastew ater
                                           Wastew ater                                                   21%
                                              20%



                                                               Sources of Sedim ents (2007)



                                                                  Forest
                                                                   21%




                                                         Mixed Open
                                                             9%
                                                                                         Agriculture
                                                                                            60%
                                                                Urban
                                                                 10%




                                       Source: CBPO, Chesapeake Bay Watershed Model, v.4.3.
                                       Note: Air deposition has been included in each category.


The Chesapeake Bay partners estimate the delivery of nutrients and sediment to the Bay using
the Chesapeake Bay watershed model. Models use mathematical representations of the real
world to estimate the effects of complex and varying environmental events and conditions.7
The amount of a particular pollutant discharged to a water body is described as “loading.” The
following tables report the estimated loadings of nitrogen, phosphorus, and sediment to the Bay
from 1985 to 2007.

7
    Chesapeake Bay Website: http://www.chesapeakebay.net/modeling.aspx?menuitem=19303


                                                                              30
                                                                                           08-P-0199


                                    2007 Loadings Data Tables

Table E-1: Total Nitrogen
                          1985               2007               Tributary       Additional
                        Loadings           Loadings             Strategy        Reductions
     Source               Data               Data                Goals           Needed
   Agriculture          149,380,071        102,805,884             52,390,555      50,415,328
   Wastewater            87,720,651         53,435,365             43,817,101       9,618,264
      Urban              30,550,094         29,856,931             20,418,701       9,438,230
  Mixed Open             17,582,281         18,790,680             14,484,056       4,306,624
      Septic             10,107,534         12,502,557              9,353,899       3,148,658
      Forest             38,713,421         41,022,309             41,020,670           1,640
 Non-Tidal Water
   Deposition              3,485,098         3,528,180             2,947,122          581,059
   All Sources           337,539,149       261,941,906           184,432,104       77,509,802
Source: Estimates from Chesapeake Bay watershed model, v. 4.3



Table E-2: Total Phosphorus
                          1985               2007               Tributary       Additional
                        Loadings           Loadings             Strategy        Reductions
     Source               Data               Data                Goals           Needed
   Agriculture           11,566,380          8,274,491              5,088,317       3,186,174
   Wastewater             9,172,764          3,810,682              3,521,573         289,109
      Urban               3,732,946          3,156,303              1,944,339       1,211,965
  Mixed Open              2,122,897          2,425,843              1,818,111         607,732
      Septic                      0                  0                      0               0
      Forest                382,089            404,672                397,407           7,265
 Non-Tidal Water
   Deposition                156,327           164,538               176,796          -12,258
   All Sources            27,133,402        18,236,529            12,946,543        5,289,986
Source: Estimates from Chesapeake Bay watershed model, v. 4.3



Table E-3: Total Sediment
                          1985               2007               Tributary       Additional
                        Loadings           Loadings             Strategy        Reductions
     Source               Data               Data                Goals           Needed
   Agriculture            4,073,853          2,861,397              1,521,416       1,339,981
   Wastewater                     0                  0                      0                0
      Urban                 413,341            475,847                256,724         219,123
  Mixed Open                377,130            427,946                381,892           46,054
      Septic                      0                  0                      0                0
      Forest                969,216            993,950              1,042,725          -48,775
 Non-Tidal Water
   Deposition                      0                  0                    0                0
   All Sources             5,833,540          4,759,140            3,202,757        1,556,383
Source: Estimates from Chesapeake Bay watershed model, v. 4.3




                                                    31
                                                                                           08-P-0199


                                                                                         Appendix F

                        Opportunities to Further Reduce
                          Mobile Source Emissions

The single largest source of nitrogen deposition into the air comes from mobile sources.
Figure F-1 shows the type and relative percent contribution of NOx air emissions sources that
deposit in the Bay. Utilities and mobile on-road sources, such as cars and trucks, account for
nearly two-thirds of all air pollution sources of nitrogen in the Chesapeake Bay airshed.

       Figure F-1: Sources of Atmospheric Nitrogen Deposition to Chesapeake Bay

        Types and Relative % Contribution of NOx Emission Sources from States* in the
                                   Chesapeake Bay Airshed
               (2001, projected from EPA’s 1999 National Emissions Inventory)




                    Mobile non-road                    Area
                         16%                           6%
                                                                             Utilities
                                                                              27%




            Mobile on-road
                39%                                                  Industries
                                                                        12%
            * 14 States: MD, VA, PA, NY, WV, NJ, OH, KY, NC, SC, TN, IN, MI, and DE




       Source: EPA and National Oceanic and Atmospheric Administration

We identified five opportunities for achieving additional emission reductions from mobile
sources:

       1. Continue to encourage use of alternative forms of transportation. Each driver
          mile forgone takes a gram of nitrogen out of the Bay’s burden. For every 500 miles
          that a person goes without driving, nearly a pound of nitrogen is kept out of the
          atmosphere.

       2. Adopt stricter vehicle emissions standards. Under the federal Clean Air Act, States
          have the option of adopting the California low emissions vehicle standards, which are
          more stringent than the national standards. Two Bay program members, Maryland
          and Pennsylvania, have adopted the California low emissions vehicle regulations.

       3. Promote low emissions vehicles. Bay partners can champion the roll-out and use of
          zero emission vehicles, such as battery/electric and hydrogen fuel cell vehicles, or
          low emission vehicles, via clean State and local on-road fleets.


                                                               32
                                                                                  08-P-0199




4. Develop control strategies to reduce emissions from heavy-duty diesel vehicles.
   Heavy-duty diesel vehicles are substantial contributors to airborne NOx. Bay
   program members could consider control strategies such as heavy-duty diesel
   vehicles retrofits, and special fuel formulations to reduce emissions.

5. Enforce prohibitions on idling and encourage truck stop electrification.
   Maryland, Pennsylvania, Virginia, and the District of Columbia have each issued
   motor vehicle idling regulations and should ensure that idling regulations are
   enforced. Bay partners could consider increasing truck stop electrification
   infrastructure, which allows drivers to “plug in” their trucks to electrical outlets when
   parked instead of idling to run the electrical systems.




                                         33
                     08-P-0199


                  Appendix G

Agency Response




      34
                                                                               08-P-0199


                                                                            Appendix H

                                    Distribution

Office of the Administrator
Regional Administrator, Region 3
Assistant Administrator, Office of Water
Director, Chesapeake Bay Program Office
Office of General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Administrator
Audit Follow-up Coordinator, Office of Water
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinator, Region 3
Deputy Inspector General




                                             35
